                                                                                                                           Ii .



                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

          Case Number: 110050015                                                                  Page 1 of 1



               The 010 initiated an investigation of an allegation that an individual I from a nonprofit
               organization2 misused federal award funds. The 010 identified two NSF awards 3 for the
               nonprofit organization, which also received funding from other federal agencies.

               The investigation found no evidence of illegalities, and no substantiation that NSF grant funds
               had been misused.

               Accordingly, this case is closed.




               2




  . NSF OIG Form 2 (J 1/02)
  ;1  I

-.J                                                                                                              )1   ""
